U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




    Bureau of Industry and Security

           FY 2009 FISMA Assessment of
            Bureau Export Control Cyber
                Infrastructure, Version 2
                              (BECCI-2)

  Draft Inspection Report No. OSE-19575/September 2009




                              Office of Audit and Evaluation
                                                       UNITED STATES DEPARTMENT OF COMMERCE
                                                       Office of Inspector General
                                                       Washington, D.C. 20230




September 30, 2009

MEMORANDUM FOR: Daniel O. Hill
                Acting Under Secretary for Industry and Security and
                   Deputy Under Secretary for Industry and Security




FROM:                        Allen Crawley
                                              ot&C~
                                                  ~
                             Assistant Inspector General
                                for Systems Acquisition and IT Security

SUBJECT:                     Bureau of Industry and Security
                             FY 2009 FISMA Bureau Export Control Cyber
                             Infrastructure, Version 2 (BECCI-2)
                             Final Inspection Report No. OSE-19575

This report presents the results of our Federal Information Security Management Act
(FISMA) review ofBIS' certification and accreditation of the Bureau Export Control
Cyber Infrastructure, Version 2 (BECCI-2).

We found that BIS' certification and accreditation ofBECCI-2 did not meet Department
and FISMA requirements. We identified deficiencies with security planning, a lack of
defined configuration settings prior to the security certification, and an incomplete
security control assessment. In addition, the authorizing official's accreditation decision
did not comply with Department and BIS policy, and as a result, additional oversight of
the system may have been inappropriately avoided. We also found that reporting
procedures required by Department policy were not followed.

OIG's own assessment ofBECCI-2 controls found vulnerabilities re uirin




In its response to our draft report, BIS did not dispute our findings but did not specifically
indicate whether it agreed with our recommendations. After receiving BIS' s response, I
spoke with BIS' acting chief information officer, who stated that BIS agreed with our
findings and recommendations. BIS' response is included in its entirety as appendix C.
We request that you provide us with an action plan describing the actions you have taken
or plan to take in response to our recommendations within 60 calendar days of the date of
this report. A plan of action and milestones should be used to communicate the plan as
required by FISMA.

We appreciate the cooperation and courtesies extended to us by your staff during our
evaluation. If you would like to discuss any of the issues raised in this report, please call
me at (202) 482-1855.




Attachment

cc:	   Suzanne lEIding, chief information officer, U.S. Department of Commerce
       Eddie Donnell, acting chief information officer, BIS
       Raushi Conrad, director, System and Security Operations, BIS
                      OIG FY 2009 FISMA Assessment


Listing of Abbreviated Terms and Acronyms

AAA           Authentication, Authorization, and Accounting       feature)
ACL           Access Control List
ATO           Authorization to Operate
BECCI-2       Bureau Export Control Cyber Infrastructure, Version 2
BIS           Bureau of Industry and Security
C&A           Certification and Accreditation
CIO           Chief Information Officer
CIS           Center for Internet Security
CSAM          Cyber Security Assessment and Management
DISA          Defense Information Systems Agency
DoD           Department of Defense
ECASS-R       Export Control Automated Support System Redesign


FIPS          Federal Information Processing Standards
FISMA         Federal Information Security Management Act of 2002
IATO          Interim Authorization to Operate
IMS-R         Investigative Management System - Redesign
IT            Information Technology
ITSO          Information Technology Security Officer


NIST          National Institute of Standards and Technology
NSA           National Security Agency
NTP           Network Time Protocol
OCIO          Office of the Chief Information Officer
OIG           Office of Inspector General
OITPP         Office of IT Policy and Planning
PIA           Privacy Impact Assessment
POA&M         Plan of Action and Milestones


SOP           Standard Operating Procedures
SSP           System Security Plan
UPI           Unique Project Identifier




                                    Page 1

                               OIG FY 2009 FISMA Assessment




Synopsis of Findings

  •    Key security planning activities necessary for certification and accreditation were not
       performed.

  •    Secure configuration settings were not defined for information technology (IT)
       products prior to the security control assessment.

  •    Security control assessment was not adequate for a                system.

  •    Authorizing official’s accreditation decision violated Department and Bureau of
       Industry and Security (BIS) IT security policy and Federal Information Security
       Management Act of 2002 (FISMA) guidance.

  •    Reporting procedures required by Department IT policies were not followed.

  •    OIG control assessment found vulnerabilities requiring remediation.

Conclusion

 The certification and accreditation of the Bureau Export Control Cyber Infrastructure,
 Version 2 (BECCI-2) did not meet Department and FISMA requirements for a
 system. Security planning deficiencies, in particular, the lack of defined security
 requirements, undermined the certification team’s ability to assess controls accurately and
 completely. Without defined security requirements, the certification team was left to judge
 controls against best practice standards rather than those that are customized to the needs
 of the system. This was most evident with the Configuration Settings (CM-6) control where
 no secure settings had been defined and documented for IT products, although BIS has
 since made progress in this area.

 In many cases, necessary testing was not performed and control assessments consisted of
 interviews and examination of incomplete documentation. Many IT products were not
 assessed because their existence was unknown to the certification team in time to
 adequately prepare assessment procedures.

 The certification team asserted its penetration test demonstrated the capability of BECCI-2
 defenses. However, we remain concerned with BIS’



 While budget constraints led BIS to focus its resources in some areas at the expense of
 others, FISMA requires the depth and rigor of security planning and the intensity of security
 control assessments be scaled to BECCI-2’s




                                           Page 2
                                   OIG FY 2009 FISMA Assessment

Summary of BIS Response

In its response to our draft report, BIS did not dispute our findings but did not specifically indicate
whether it agreed with our recommendations. BIS stated that in FY 2010 it plans to have a
complete and approved certification and accreditation for all its systems. BIS also stated it has
begun efforts to improve certification and accreditation documentation, IT workforce skills, and
overall FISMA responsibilities.

BIS’ response is included in its entirety as appendix C of this report.

OIG Comments

After receiving BIS’ response, OIG’s assistant inspector general for systems acquisition and IT
security spoke with BIS’ acting chief information officer, who stated that BIS agreed with our
findings and recommendations.




                                                Page 3
                                OIG FY 2009 FISMA Assessment



Introduction
 BECCI-2 is the production version general support system that was implemented as part of
 BIS’ Export Control Automated Support System Redesign (ECASS-R). BECCI-2 is part of
 an effort that began in 2006 to implement an infrastructure designed to segregate
 applications according to the categorization of information stored, processed, and
 transmitted.

 The system is intended to host BIS’ major applications that include




 The system consists of network components, security infrastructure, storage and system
 administration software and hardware components, servers, and workstations. The system
 includes data centers in                                 , and additional components in the
                                                . Redundant connections to the data centers
 exist via the                                              . There are also field offices
 located throughout the United States that include network components and workstations for
 major application users.

 Thus far, and for the duration of our evaluation, only one major application is operating on
 the BECCI-2 infrastructure; this application, the Investigative Management System-
 Redesign (IMS-R), is separately certified and accredited and not part of our review.

Certification and Accreditation (C&A) Timeline and BIS’ Constraints

 BECCI-2’s security certification occurred during August-September 2008, and the system
 was authorized to operate on October 3, 2008. In a memo submitted with the C&A
 package, BIS told us that

       Given the severe BIS 2008 and 2009 budget constraints, BIS made a
       conscious decision, with the cognizance of the Under Secretary, Deputy
       Under Secretary, Department CIO, Department Deputy Secretary, and the
       full Department IT Review Board, to focus its very scarce resources on
       technical controls as opposed to documentation.

 The memo also indicated that BIS’ executive management considered delaying BECCI-2’s
 deployment until securing “additional funding to improve its documentation and address all”
 of the certification team’s findings. However, a previous                             on the
               made the deployment of IMS-R onto BECCI-2 infrastructure “critical.” And BIS
 indicated, “Consideration of the design, [sic] is a driver (in addition to its technical controls
 testing results) for the independent…assessment of the system as secure.”

 The authorizing official’s accreditation decision letter, while granting a “full“ authorization to
 operate (ATO), placed restrictions on system operation by requiring the system owner and
 staff to mitigate high- and moderate-risk vulnerabilities within 180 days, or the authorization
 to operate would be rescinded. On April 1, 2009, the system owner requested, and the
 authorizing official granted, a 6-month extension of the ATO in order to complete the
 mitigation of vulnerabilities.




                                             Page 4
                                    OIG FY 2009 FISMA Assessment

Findings and Recommendations

    1. Key Security Planning Activities Necessary for Certification and
       Accreditation Were Not Performed
    Background: Department policy requires operating units to follow the C&A process as
    detailed in NIST SP 800-37, Guide for the Security Certification and Accreditation of Federal
    Information Systems. NIST SP 800-37 outlines a four-phased1 process to ensure “agency
    officials have the most complete, accurate, and trustworthy information possible on the
    security status of information systems.” The initiation phase includes security planning
    activities, which provide a basis for the assessment of security controls in the security
    certification phase.

     •    The system’s accreditation boundary was not defined prior to the security certification
          phase.
            o The certification team was not provided a complete listing of the system’s
                hardware and software components, required by Department policy, which would
                fully describe the system’s accreditation boundary.
                   This lack of information hampered the security control assessment (see
                       finding 3).
            o The initiation phase in NIST SP 800-37 calls for the system owner to confirm that
                the system has been fully described and documented before beginning the
                security certification phase.

     •    The system security plan was incomplete and did not provide an adequate basis for the
          security certification.
                                 2
            o Draft versions of the security plan given to the certification team were missing
                sufficient detail to permit analysis and testing of controls.
                   

                                                                                     ).” This level
                      of assurance was not evident in the security plan and related system
                      documentation.
                        •                         technical controls descriptions we examined
                            were inadequate in the security plans BIS provided to the certification
                            team for its control assessment. (This includes information in the
                            “Detailed Network and Security Infrastructure Design” document that
                            the certification team referenced in its assessment results.)




1
  The four phases of the C&A process are: initiation, security certification, security accreditation, 

and continuous monitoring.

2
  The certification team’s spreadsheet of assessment results references security plan versions

0.2, 0.3, and 0.4. We reviewed draft Versions 0.3 and 0.4 and BIS-approved Versions 1.0 and

1.5.
3
  From NIST SP 800-53 Revision 2, Recommended Security Controls for Federal Information
Systems, E-1-2
                                                Page 5
                                   OIG FY 2009 FISMA Assessment


           o	 The certification team told us that the lack of information in the plan precluded
              testing many controls. In its security assessment report, the certification team
              said, “The [system security plan] is still in draft form during conduct of the
              [security control assessment] and test development. It contains references to
              documents that are unknown to the testers, or currently do not exist.”
                	 The security assessment report also noted, “The primary reason for most
                     [control] failures was material weakness of policy, procedures, plans, and
                     records,” indicating, “This is an administrative corrective action that
                     impacts technical controls [emphasis added].”

    •	   The approved system security plan (Version 1.0) was not completed until after most of
         the security control assessment and was not provided to the certification team.
           o	 The security plan was approved by the system owner, BIS’ then-chief information
               officer (CIO), and the information technology security officer (ITSO) on August
               29, 2008, and by the authorizing official on September 5, 2008.
           o	 The certification team assessed controls between August 18, 2008, and
               September 15, 2008, and told us BIS did not provide the approved security plan.
                 	 Even if it had, we found Version 1.0 to have the same deficiencies as the
                      draft plans. BIS has improved its security plan since the accreditation with
                      Version 1.5, which provides more complete information on control
                      implementations.
           o	 NIST SP 800-37 calls the acceptance of the security plan by the authorizing
               official and senior agency information security officer “an important milestone”
               that occurs “prior to conducting an assessment of controls.”

    •	
                                    4
         Common security controls were not clearly defined.
           o	 The initial security plan identified 35 security controls as common controls
              (controls the system inherits from others), or having partially common control
              elements, because they were controls supporting several IT systems including
              BECCI-2.
           o	 The certification team noted, in the security assessment report, some uncertainty
              about “inheritance from the enterprise” and whether the system owner has
              responsibility for some controls.
           o	 After certification and accreditation was completed, BIS asserted that BECCI-2
              does not have common controls that it inherits from other providers, but it is
              providing controls for all other systems residing on its infrastructure.
                	 This change illustrates the fact that several months after certification testing
                     was completed, there was still uncertainty as to who was responsible for
                     security controls in BECCI-2.




4
  Common security controls’ development, implementation, and assessment are assigned to
responsible organization officials or elements other than system owners whose systems will
implement or use the controls. Common controls are intended to facilitate reuse across systems
where they will be used (see NIST SP 800-53, Rev. 2, 9-10).
                                               Page 6
                               OIG FY 2009 FISMA Assessment


Recommendations

BIS should

1.1 provide a full listing of hardware and software components in advance of future control
    assessments so that assessors may prepare for testing of all IT products where controls
    are implemented;
1.2 include in the system security plan and related documents sufficient detail to permit
    analysis and testing of controls;
1.3 ensure that updated security plans are accepted by the system owner, authorizing official,
    and BIS’ ITSO in advance of future control assessments; and
1.4 in the event that common controls are employed, update the plan to provide sufficient
    clarity as to who is responsible for their development, implementation, and assessment.




                                           Page 7
                                 OIG FY 2009 FISMA Assessment



2. Secure Configuration Settings Were Not Defined for IT Products Prior to
   the Security Control Assessment
 Background: The Department’s IT security policy and NIST SP 800-53 require establishing
 and assessing secure configuration settings for IT products, which include operating systems
 for system components (such as servers, desktops, laptops, routers, and switches) and
 applications (such as e-mail, Web, virtual private network (VPN), firewall, intrusion detection,
 database, and antivirus). FISMA and OMB guidance also highlight the importance of secure
 configuration settings. Implementing and maintaining secure configuration settings is one of
 the most effective ways of negating threats.

  •    Secure configuration settings were not defined prior to the assessment of controls by
       the certification team.
         o The certification team indicated the Configuration Settings (CM-6) control was not
             tested on system components “due to time constraints” and said, “This test
             should be completed during the next assessment.”
         o The certification team did compare configuration settings of some IT products
             against Defense Information Systems Agency (DISA)-defined settings or industry
             best practices.
                 Settings from
                     were examined in this manner.
                 While the scanning revealed deficiencies, the certification team could not
                     validate settings based on the specific operational needs of this
                             system because BIS had not defined its own settings. Therefore,
                     the risk presented by the deficiencies was not clear.

  •    Currently defined configuration settings for IT products need improvement.

       BIS has now defined configuration settings for IT products on BECCI-2. Below, we
       present deficiencies that should be addressed. (The NIST SP 800-53 assurance
       requirements for a              system like BECCI-2 call for
                            .)

       Department IT security policy requires operating units to implement the methodology
       described in NIST SP 800-70, Security Configuration Checklists Program for IT
       Products – Guidance for Checklists Users and Developers. NIST SP 800-70 calls for
       organizations to tailor industry standards or checklists (benchmarks) to reflect local
       rules, regulations, and mandates. Any changes to the standard checklist or other
       industry guide should be documented as part of the organization’s defined configuration
       settings. BIS has not documented some of its configuration settings according to these
       requirements.

         o   The file defining BIS’                         standard secure configuration does
             not explain deviations from benchmark settings.
                BIS used “                             Security Guide and the [Center for
                    Internet Security (CIS)]                         … Consensus Security
                    Settings … as the basis for configuring the systems and customized the
                    settings …”
                      • A review of the file defining BIS’ custom settings found that the
                           rationale for modifications to benchmark settings was not explained.




                                              Page 8
                                OIG FY 2009 FISMA Assessment



              	   OIG identified            vulnerabilities through DISA-based testing (Gold 

                   Disk). BIS indicated that these were not vulnerabilities stating, “It is a 

                   compliance issue as relates to Gold Disk standards. We do not set our 

                   [configuration settings] to adhere to Gold Disk standards. (And there is 

                   nothing in the [system security plan] that contradicts the settings used on 

                   these servers.)” 

                     •	 However, while BIS may not adhere to Gold Disk standards in its 

                          standard secure configuration, the Gold Disk vulnerabilities, 

                          according to DISA, have a high potential of giving access to an 

                          intruder.

                     •	 In addition, there is overlap between DISA’s Gold Disk and BIS’
                          defined settings since many of DISA’s recommended settings are
                          derived from settings recommended in the benchmarks used by BIS.
                               o	 Of the seven vulnerabilities from our DISA-based testing that
                                   we discussed with BIS, four are addressed in the
                                                 Security Guide, which BIS cites as a benchmark
                                   (see table 5 for details).

        o   BIS’ secure configuration settings for      devices need improvement.
               BIS’ standard secure configuration for          devices is based on CIS and
                  NSA benchmarks. The BIS standard secure configuration depicts the
                  BECCI-2 configuration settings in relation to CIS’ recommendations.
              	 Not all benchmark settings are addressed in BIS’          standard secure
                  configuration. Notably:
                    •	 Authentication, authorization, and accounting (AAA) security
                        mechanisms – The BIS standard secure configuration addresses
                        only authentication. The benchmarks include recommendations for
                        configuring authorization and accounting mechanisms.
                    •


                     •



              	   Some BIS settings are not accurately described. For example:
                    •




Recommendation

2.1 BIS should continue to improve its defined configuration settings in accordance with
    guidance in NIST SP 800-70 (as Department policy requires).




                                            Page 9
                               OIG FY 2009 FISMA Assessment



3. Security Control Assessment Was Not Adequate


BIS’ certification team assessed controls by interviewing system administrators, examining
available documentation, scanning network segments to determine the composition and
scope of the system, scanning              and        hosts with both network and application
tools and DISA’s scripts, and comparing configurations collected from          devices against
“best practice” recommended settings. The certification team told us its overall assessment
of the security status of the system relied heavily on a system penetration test it conducted.

The certification team documented the assessment results of NIST SP 800-53 controls in a
spreadsheet and other documents that record the assessment objectives, methods (i.e.,
interview, examine, or test),objects (e.g., a person, document, or class of components), and
the “actual results.” In addition, the team prepared a preliminary plan of action and
milestones (POA&M) that included vulnerabilities identified by technical testing (scans,
scripts, etc.) and the corresponding NIST SP 800-53 controls. The certification team told us
that its testing was the first phase of what it understood to be a two-phased approach to
assessing the system’s controls. However, the team was not called back for more testing.

 •    Various IT products that implement security controls were not assessed.
        o The certification team told us that absent a complete listing of hardware and
            installed software, it was not able to fully prepare assessment procedures for
            various components they eventually learned were part of the system. Significant
            IT products that were not assessed include:
               application servers such as                                         ,
                                        , and                             ;
              
               operating systems:
                                     ; and
                                                                (see OIG assessment in
                   finding 6).

 •    Fifty controls were not tested “due to time constraints” according to the certification
      team’s documented results (see table 1).
         o In each case, the certification team stated, "This test should be completed
             during the next assessment.”
         o The “test” method for assessing controls is one that is commensurate with
             BECCI-2’s               security categorization according to NIST SP 800-53A,
             Guide for Assessing the Security Controls in Federal Information Systems.
                However, the certification team relied on interviewing and examination
                    methods for assessing the effectiveness of these controls.

 •    Assessments suffered from inadequate or inaccurate information resulting from BIS’
      lack of security planning (see table 2).

 •    In other cases, assessment procedures were not performed sufficiently to meet the
      assessment objectives (see table 3).




                                           Page 10
                               OIG FY 2009 FISMA Assessment


Recommendations

BIS should

3.1 assess IT products not evaluated for certification and accreditation;

3.2 complete assessments of controls not tested by the certification team due to time
    constraints;

3.3 ensure that control assessors are provided sufficient information resulting from improved
    BIS security planning processes (see finding 1); and

3.4 employ assessment procedures that are sufficient to meet the assessment objectives.




                                           Page 11
                                   OIG FY 2009 FISMA Assessment


4. Authorizing Official’s Accreditation Decision Violated Department
   and BIS IT Security Policy and FISMA Guidance

    The deputy under secretary for Industry and Security granted a “full” ATO after reviewing
    the BECCI-2 security accreditation package. However, the authorization letter imposed
    restrictions that (1) “BECCI-2 must mitigate all [high- and moderate-risk security control]
    deficiencies within 180 calendar-days from the issuance of this Letter of ATO, and confirm
    that the mitigations have been completed in writing to me, or this letter is withdrawn
    [emphasis added],” and (2) the status of low-risk security deficiencies be reported to him
    within 180 days.

     •   Although the system is reported in the Department’s system inventory with an ATO,
         the restrictions included with the decision equate to an interim authorization to
         operate (IATO) as defined in the Department’s IT security policy and NIST SP 800-
         37.
           o An IATO “provides authorization to operate the information system under
               specific terms and conditions and acknowledges greater risk to the agency for
                                               5
               a specified period of time.”
           o Notably, the certification team recommended an IATO based on its assessment
               findings and an acknowledgement of limitations in its own testing.
           o According to the Department’s policy, in an ATO, risk is deemed fully
               acceptable and “Although not affecting the security accreditation decision
               [emphasis added], the [authorizing official] may recommend specific actions be
               taken by the system owner to reduce or eliminate identified vulnerabilities,
               where it is cost effective to do so.”
                   However, the restrictions in BECCI-2’s authorization letter were
                       conditions affecting the accreditation decision—high- and moderate-risk
                       deficiencies in controls had to be remediated in 180 days or “this letter is
                       withdrawn.”
           o BIS’ actions post-ATO have reaffirmed the actual status as an IATO.
                   On April 1, 2009, the BECCI-2 system owner requested “an extension to
                       the Authorization to Operate” for 6 months in order to complete
                       remediation of the vulnerabilities. The memo indicated that all high-risk
                       vulnerabilities had been “fully addressed.”
                         • However, some high-risk deficiencies were not remediated until
                              April 6, 2009, after we informed BIS that high-risk deficiencies
                              described in the executive summary of the security assessment
                              report had not been addressed.
                                  o Moderate-risk deficiencies were not remediated in the 180
                                       days following the ATO.
                                  o Authorizing official’s granting of the 6-month extension
                                       illustrates the perceived “greater risk to the agency for a
                                       specified period of time” that is consistent with an IATO as
                                       defined under the Department’s policy and FISMA’s
                                       guidance.




5
 See U.S. Department of Commerce, IT Security Program Policy and Minimum Implementation
Standards, Revised June 30, 2005, Section 6.7.1, 59.

                                               Page 12
                                      OIG FY 2009 FISMA Assessment



      •	   BIS policy required a Denial of ATO and does not permit an IATO because such a
           decision would potentially result in additional oversight by OMB. This inappropriate
           rationale is stated in BIS IT policy:

                 Although conceptually there is a third potential accreditation
                 decision, Interim Authorization to Operate (IATO), this is not
                 acceptable as a matter of BIS policy because this status is not
                 acceptable to OMB [emphasis added]. OMB has determined that
                 an information system is not accredited during the period of limited
                 authorization to operate, and [does] not satisfy criteria for a well-
                 managed investment. Investments for systems with an IATO
                 status are historically assigned to the OMB watch list
                 [emphasis added].

                 Therefore, all BIS systems which might be considered as IATO
                 systems are instead assigned to the Denial of ATO category
                 [emphasis added]…6

             o	 While systems operating under an IATO are not counted as accredited under
                the agency’s FISMA scorecard, an IATO is an option under NIST SP 800-37.

      •	   Additional oversight by the Department and OMB may have been inappropriately

           avoided. 

             o	 A by-product of BIS granting an ATO (rather than an IATO or Denial of ATO) is
                  that the Department and OMB were precluded from identifying this system as
                  one that potentially requires greater attention from senior management.
                    	 An ATO “with restrictions” is not separately reported; BECCI-2 is counted
                         as an ATO in the Department’s system inventory and FISMA’s report to
                         OMB.

    Recommendations

    BIS should

    4.1 revise its policy for accreditation decisions to comply with Department policy and
        FISMA; and

    4.2 follow its (revised) policy for future accreditation decisions.




6
    Bureau of Industry and Security, November 2007. IT Security Program Policy, 52.

                                                  Page 13
                                  OIG FY 2009 FISMA Assessment


5. Reporting Procedures Required by Department IT Policies Were Not
   Followed

    •   BIS did not identify any proposed deviations from the mandatory practices of the
        Department’s IT security policy and request a waiver(s) in writing through BIS’ then-
        CIO from the Department’s IT security program manager as the policy required.7
          o BIS indicated that it chose “to focus its very scarce resources on technical
              controls as opposed to documentation,” but in doing so failed to comply with
              mandatory practices of the Department’s IT security policy (see finding 1).
          o While BIS asserted the deviations in security planning were generally done
              “with the cognizance of” BIS and Department senior management, there was
              no formal waiver request filed with and approved by the Department’s IT
              security program manager.
                 BIS’ then-CIO told us that a waiver request had been drafted but was
                     never submitted to the Department.

    •   BIS did not submit BECCI-2’s POA&M to the Department’s OCIO for the first quarter
        of FY09.
           o As a result, the status of corrective actions for this system was not properly
              communicated to the Department.
           o POA&M items are now entered into cyber security assessment and
              management tool (CSAM) and viewable by Department OCIO officials.

    •   BIS did not submit the BECCI-2 privacy impact assessment (PIA) to the Department’s
        OCIO for review and approval.
          o BIS’ IT security officer told us BECCI-2 was exempted from this requirement
              because BECCI-2 did not have a specific system of records notice.
                 However, the Department required operating units to submit all PIAs to
                     the OCIO, whether or not there is a specific system of records notice, for
                     review and approval to ensure compliance with the Department’s IT
                     privacy policy. The Department’s current IT privacy policy, updated
                     January 2009, now requires operating units to submit PIAs to the
                     Director, Office of IT Policy and Planning (OITPP), to whom the
                     Department’s CIO has delegated the authority to review, approve, and
                     publish PIAs.
          o BECCI-2’s PIA did not include information for two of the additional elements
              required by the Department (but not by OMB).
                 Unique project identifier (UPI) from Exhibit 300 – The Department’s IT
                     privacy policy requires that PIAs include the UPI and clearly indicate the
                     link between the system or information collection covered by the PIA and
                     the related major information system described in OMB Exhibit 300,
                     Capital Asset Plan and Business Case Summary.
                 Data Extract Log and Verify Requirement – the December 18, 2007,
                     memorandum from the Department’s CIO titled “Data Extract Log and
                     Verify Requirement,” requires operating units to document in PIAs how
                     the log and verify requirement of OMB M-07-16, Safeguarding Against
                     and Responding to the Breach of Personally Identifiable Information, has
                     been implemented for the system.


7
  The Department’s current IT security policy, revised in March 2009, no longer requires waivers
to be submitted to the Department’s IT security program manager. Instead, waiver requests are to
be submitted to the operating unit’s CIO, while the Department’s CIO has the discretion of
elevating the waiver-approval process for issues that affect Department-wide security.

                                             Page 14
                                OIG FY 2009 FISMA Assessment


Recommendations

BIS should

5.1 comply with the waiver process as outlined in the Department’s IT security policy; and

5.2 update the BECCI-2 privacy impact assessment to include all required elements and
    submit it to the Director of OITPP in accordance with the Department’s IT privacy policy.




                                           Page 15
                                    OIG FY 2009 FISMA Assessment



6. OIG Control Assessment Found Vulnerabilities Requiring
   Remediation

    As part of OIG’s FY09 FISMA evaluation of BECCI-2, we assessed a targeted set of system
    components to determine if selected security controls are properly implemented on
    applicable IT products. We tailored our procedures to the infrastructure’s specific control
    implementations.

     •   OIG assessments identified several weaknesses in NIST SP 800-53 controls that
         need to be addressed. These include the following:




     •   Details for NIST SP 800-53 controls are listed in table 4.

     •                           vulnerabilities identified by Gold Disk are listed in table 5.

     •          improper settings are listed in table 6.

     •          improper settings are listed in table 7.




8




                                                Page 16
                               OIG FY 2009 FISMA Assessment



Recommendation

6.1 BIS should add the vulnerabilities we identified in tables 4-7 and the issue with
    quarterly vulnerability scanning described above to the system’s plan of action and
    milestones, and remediate the vulnerabilities accordingly.




                                           Page 17
                                                       OIG FY 2009 FISMA Assessment




Table 1. Controls Not Tested Due to Time Constraints




                                                                 Page 18

                                                   OIG FY 2009 FISMA Assessment




Table 2. Assessments Hindered by Inadequate or Inaccurate Information
Control                           Certification Team Assessment (Excerpts)        OIG Comments
             Methods/Objects               [Results]




                                                             Page 19
                                                   OIG FY 2009 FISMA Assessment




Table 2. Assessments Hindered by Inadequate or Inaccurate Information
Control                           Certification Team Assessment (Excerpts)        OIG Comments
             Methods/Objects               [Results]




                                                             Page 20
                                                   OIG FY 2009 FISMA Assessment




Table 2. Assessments Hindered by Inadequate or Inaccurate Information
Control                           Certification Team Assessment (Excerpts)        OIG Comments
             Methods/Objects               [Results]




                                                             Page 21
                                                   OIG FY 2009 FISMA Assessment




Table 3. Insufficient Assessment Procedures
                               Certification Team Assessment (Excerpts)
Control      Assessment            Method/Objects       Actual Results            Met?   Evidence   OIG Comments
             Objective             [Procedure]




                                                              Page 22
                                                   OIG FY 2009 FISMA Assessment




Table 3. Insufficient Assessment Procedures
                               Certification Team Assessment (Excerpts)
Control      Assessment            Method/Objects       Actual Results            Met?   Evidence   OIG Comments
             Objective             [Procedure]




                                                              Page 23
                                                   OIG FY 2009 FISMA Assessment




Table 3. Insufficient Assessment Procedures
                               Certification Team Assessment (Excerpts)
Control      Assessment            Method/Objects       Actual Results            Met?   Evidence   OIG Comments
             Objective             [Procedure]




                                                              Page 24
                                                   OIG FY 2009 FISMA Assessment




Table 3. Insufficient Assessment Procedures
                               Certification Team Assessment (Excerpts)
Control      Assessment            Method/Objects       Actual Results            Met?   Evidence   OIG Comments
             Objective             [Procedure]




                                                              Page 25
                                                   OIG FY 2009 FISMA Assessment




Table 3. Insufficient Assessment Procedures
                               Certification Team Assessment (Excerpts)
Control      Assessment            Method/Objects       Actual Results            Met?   Evidence   OIG Comments
             Objective             [Procedure]




                                                              Page 26
                                               OIG FY 2009 FISMA Assessment




Table 4. OIG Control Assessment Results
Security          NIST SP 800-53 Requirement          OIG Assessment Results
Control




                                                         Page 27
                                               OIG FY 2009 FISMA Assessment




Table 4. OIG Control Assessment Results
Security          NIST SP 800-53 Requirement          OIG Assessment Results
Control




                                                         Page 28
                                               OIG FY 2009 FISMA Assessment




Table 4. OIG Control Assessment Results
Security          NIST SP 800-53 Requirement          OIG Assessment Results
Control




                                                         Page 29
                                               OIG FY 2009 FISMA Assessment




Table 4. OIG Control Assessment Results
Security          NIST SP 800-53 Requirement          OIG Assessment Results
Control




                                                         Page 30
                                               OIG FY 2009 FISMA Assessment




Table 4. OIG Control Assessment Results
Security          NIST SP 800-53 Requirement          OIG Assessment Results
Control




                                                         Page 31
                                                   OIG FY 2009 FISMA Assessment




Table 4. OIG Control Assessment Results
Security Control      NIST SP 800-53 Requirement          OIG Assessment Results




                                                             Page 32
                                                     OIG FY 2009 FISMA Assessment




Table 5           Vulnerabilities Identified by DISA’s Gold Disk (OIG Control Assessment)
Vulnerability Description           BIS Assertion (Full Quotation)         OIG Comments




                                                               Page 33
                                                     OIG FY 2009 FISMA Assessment




Table 5.          Vulnerabilities Identified by DISA’s Gold Disk (OIG Control Assessment)
Vulnerability Description           BIS Assertion (Full Quotation)         OIG Comments




                                                               Page 34
                                                     OIG FY 2009 FISMA Assessment




Table 5.          Vulnerabilities Identified by DISA’s Gold Disk (OIG Control Assessment)
Vulnerability Description           BIS Assertion (Full Quotation)         OIG Comments




                                                                                                               SSP implementation
                                                                         description for access enforcement.




                                                               Page 35
                                                  OIG FY 2009 FISMA Assessment




Table 6      Improper Configuration Settings (OIG Control Assessment)




                                                                      

Rule Name
                   Device               Instance        Total   OIG Comments




                                                            Page 36
                                                  OIG FY 2009 FISMA Assessment




Table 6.     Improper Configuration Settings (OIG Control Assessment)




                                                                       

Rule Name
                   Device               Instance        Total    OIG Comments




                                                            Page 37

                                                  OIG FY 2009 FISMA Assessment




Table 6.     Improper Configuration Settings (OIG Control Assessment)




                                                                       

Rule Name
                   Device               Instance        Total    OIG Comments




                                                            Page 38

                                                  OIG FY 2009 FISMA Assessment




Table 7       Improper Configuration Settings (OIG Control Assessment)
Configuration Setting Requirement                                                BIS Host
Rule Id BIS/CIS Rule




                                                            Page 39

                                OIG FY 2009 FISMA Assessment


Appendix A: Objectives, Scope, and Methodology

To meet the FY 2009 Federal Information Security Management Act of 2002 (FISMA)
reporting requirements, we evaluated the BIS certification and accreditation for the Bureau
Export Control Cyber Infrastructure, Version 2 (BECCI-2).
Security certification and accreditation packages contain three elements, which form the basis
of an authorizing official’s decision to accredit a system:

    •   The system security plan describes the system, the requirements for security
        controls, and the details of how the requirements are being met. The security plan
        provides a basis for assessing security controls and also includes other documents
        such as the system risk assessment and contingency plan, per Department policy.
    •   The security assessment report presents the results of the security assessment
        and recommendations for correcting control deficiencies or mitigating identified
        vulnerabilities. This report is prepared by the certification agent.
    •   The plan of action & milestones (POA&M) is based on the results of the security
        assessment. It documents actions taken or planned to address remaining
        vulnerabilities in the system.

The Department’s IT Security Program Policy and Minimum Implementation Standards
requires that C&A packages contain a certification documentation package of supporting
evidence of the adequacy of the security assessment. Two important components of this
documentation are

    •   the certification test plan, which documents the scope and procedures for testing
        (assessing) the system’s ability to meet control requirements; and
    •   the certification test results, which is the raw data collected during the assessment.

To evaluate the certification and accreditation, we reviewed all components of the C&A
package and interviewed BIS staff to clarify any apparent omissions or discrepancies in the
documentation and gain further insight on the extent of the security assessment. We
evaluated the security plan and assessment results for applicable security controls and will
give substantial weight to the evidence that supports the rigor of the security assessment
when reporting our findings to OMB.

In addition, we performed our own assessment of a targeted selection of controls (see
appendix B). We conducted our assessment using a subset of procedures from NIST SP 800-
53A, which we tailored to BECCI-2’s specific control implementations. We did not attempt to
perform a complete assessment of each control; instead we chose to focus on specific
technical and operational elements.

We assessed controls on key classes of IT components, choosing a targeted set of
components from each class that would allow for direct comparison with BIS’ certification test
results. We assessed configuration settings on
                                                                                 We looked
at controls implemented on                   and network-addressable
      We also assessed aspects of controls implemented by firewalls (specifically the rule
sets)                                                ),
                                                                                         We
also performed vulnerability scanning using Nessus.




                                           Page 40
                                 OIG FY 2009 FISMA Assessment


Our assessment included the following activities:

    •	   extraction, examination, and verification of system configurations
    •	   execution of scripts and manual checklists
    •	   examination of system logs
    •	   review of account management procedures
    •	   vulnerability scanning of network-addressable components
    •	   examination/analysis of security plan descriptions, including related policy and
         procedure documents
    •	   interviews of appropriate BIS personnel

Our assessment was limited in scope and should not be interpreted as the comprehensive
review that a security certification for a          system would require. It gave us direct
assurance of the status of select aspects of important system controls and provided
meaningful comparison to BIS’ security certification.

We reviewed the BECCI-2 privacy impact assessment as part of privacy reporting
requirements included in our annual FISMA report to OMB.

We used the following review criteria:

    •	   Federal Information Security Management Act of 2002 (FISMA)
    •	   U.S. Department of Commerce IT Security Program Policy and Minimum 

         Implementation Standards, June 30, 2005 

    •	   NIST Federal Information Processing Standards (FIPS)
             o	 Publication 199, Standards for Security Categorization of Federal Information
                 and Information Systems
             o	 Publication 200, Minimum Security Requirements for Federal Information and
                 Information Systems
    •	   NIST Special Publications:
             o	 800-18, Guide for Developing Security Plans for Information Technology
                 Systems
             o	 800-37, Guide for the Security Certification and Accreditation of Federal
                 Information Systems
             o	 800-53, Recommended Security Controls for Federal Information Systems
             o	 800-53, A Guide for Assessing the Security Controls in Federal Information
                 Systems
             o	 800-70, Security Configuration Checklists Program for IT Products
             o	 800-115, Technical Guide to Information Security Testing and Assessment

We conducted our evaluation in accordance with the Inspector General Act of 1978, as
amended, and the Quality Standards for Inspections (revised January 2005), issued by the
President’s Council on Integrity and Efficiency.




                                            Page 41
                            OIG FY 2009 FISMA Assessment




Appendix B: NIST SP 800-53 Security Controls Assessed by OIG

  •   AC-2 Account Management
  •   AC-3 Access Enforcement
  •   AC-7 Unsuccessful Login Attempts
  •   AC-8 System Use Notification
  •   AC-11 Session Lock
  •   AU-2 Auditable Events
  •   AU-6 Audit Monitoring, Analysis, and Reporting
  •   AU-8 Time Stamps
  •   AU-9 Protection of Audit Information
  •   AU-11 Audit Record Retention
  •   CM-6 Configuration Settings
  •   CM-7 Least Functionality
  •   IA-2 User Identification and Authentication
  •   IA-3 Device Identification and Authentication
  •   IA-5 Authenticator Management
  •   PL-4 Rules of Behavior
  •   SC-7 Boundary Protection
  •   SC-18 Mobile Code
  •   SI-2 Flaw Remediation
  •   SI-3 Malicious Code Protection
  •   SI-4 Information System Monitoring Tools and Techniques
  •   SI-7 Software and Information Integrity




                                       Page 42
                                                   UNITED STATES DEPARTMENT OF COMMERCE
Appendix C: BIS Response                           Under Secretary for Industry and Security
                                                   Washington, D.C. 20230



                                                         SEP: i· G&009


  MEMORANDUM FOR ALLEN CRAWLEY
                 Assistant Inspector General
                  for Systems Acquisition and IT Security

  FROM:                   Daniel O. Hill~
                          Acting Under Secretary

  SUBJECT:               Draft Inspection Report No. OSE-19575: FY2009 FISMA
                         Assessment ofBureau Export Control Cyber Infrastructure,
                         Version 2 (BECCI-2)


  Thank you for the opportunity to comment on the above-referenced draft DIG Report.
  The DIG FY 2009 FISMA Assessment ofBECCI-2 provides the BIS Office of the Chief
  Information Officer (OCIO) with valuable information that will be incorporated into
  system security planning, configuration management and monitoring. The findings and
  recommendations from the draft DIG Inspection Report have been reviewed and BIS
  does not dispute the findings.

 To ensure compliance moving forward, one of the OCIO's major objectives for FY 2010
 is a complete and approved C&A for all our systems, especially
 infrastructure. In anticipation of the full FY 2010 President's Request, the BIS OCIO has
 begun efforts to improve our C&A documentation, IT workforce skills and overall
 FISMA responsibilities.

 If you have any questions comments on our response, please contact Eddie Donnell, BIS'
 Acting Chief Information Officer, at (202) 482-4296.




 cc: Suzanne Hilding,
     Chief Information Officer
